OFFICE OF INSPECTOR GENERAL�


Audit of the United States African
Development Foundation's
Financial Statements for Fiscal
Years 2009 and 2008
AUDIT REPORT NO. 0-ADF-10-002-C
November 13, 2009




WASHINGTON, DC�
Office of Inspector General


November 13, 2009

MEMORANDUM

TO: 	                ADF President and CEO, Lloyd O. Pierson

FROM: 	              AIG/A, Joseph Farinella /s/

SUBJECT:	            Audit of the United States African Development Foundation’s Financial
                     Statements for Fiscal Years 2009 and 2008 (Audit Report No. 0-ADF-10-002-C)

With this memorandum, the Office of Inspector General (OIG) is transmitting the audit report
prepared by the certified public accounting firm of Leonard G. Birnbaum and Company, LLP
(Independent Auditor) on the Financial Statements of the United States African Development
Foundation (ADF) as of September 30, 2009 and 2008. The OIG contracted with this
Independent Auditor to audit the financial statements.

The Independent Auditor expressed an unqualified opinion on ADF’s FY 2009 and 2008
financial statements and notes. The report states that the Financial Statements presented fairly,
in all material respects, ADF’s financial positions, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30, 2009 and 2008, in
conformity with accounting principles Generally Accepted in the United States of America.

The report contained no material weaknesses or significant deficiencies in ADF’s internal control
over financial reporting and no instances of material noncompliance with selected provisions of
applicable laws and regulations involving ADF’s financial management system.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted Government Auditing Standards issued by
the Comptroller General of the United States; and the Office of Management and Budget
Bulletin (OMB) 07-04, Audit Requirements for the Federal Financial Statements.

In connection with our contract, we reviewed the Independent Auditor’s related audit
documentation. Our review is different from an audit in accordance with the auditing standards
discussed above, was not intended to enable us to express, and we do not express an opinion
on ADF’s financial statements. Also, we did not express conclusions on the effectiveness of
ADF’s internal control or ADF’s compliance with other laws and regulations. The Independent
Auditor was responsible for the attached auditor’s report dated November 3, 2009 and the
conclusions expressed therein. Our review disclosed no instances where the Independent
Auditor did not comply, in all material respects, with the auditing standards discussed above.

U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
                                             -2-

The Office of Inspector General appreciates the cooperation and courtesies extended to our
staff and to the staff of Leonard G. Birnbaum and Company, LLP, during the audit. If you have
questions concerning this report, please contact Rohit Chowbay at (202) 712-1317.
CONTENTS
Message from the President .......................................................................................... 1 


Management’s Discussion and Analysis...................................................................... 2 


Message from the CFO................................................................................................. 16 


Independent Auditor’s Reports ................................................................................... 17 


Financial Statements 


     Balance Sheet........................................................................................................... 21 


     Statements of Net Cost ............................................................................................. 22 


     Statements of Changes in Net Position .................................................................... 23 


     Statements of Budgetary Resources ........................................................................ 24 


     Notes to the Financial Statements ............................................................................ 25 

UNITED STATES AFRICAN DEVELOPMENT FOUNDATION 


   PERFORMANCE AND ACCOUNTABILITY REPORT 


                FISCAL YEAR 2009 





        Leonard G. Birnbaum and Company, LLP
                 6265 Franconia Road
                Alexandria, VA 22310 

                    (703) 922-7622 

                            UNITED STATES AFRICAN DEVELOPMENT FOUNDATION




November 3, 2009
                                 MESSAGE FROM THE PRESIDENT

I am pleased to submit the FY 2009 Performance and Accountability Report for the United States African
Development Foundation (USADF). USADF is committed to achieving the highest levels of effective and
efficient operations, full transparency and accountability in financial reporting, and full compliance with
applicable laws and regulations.
USADF has a unique development assistance mission in the Federal government. The Foundation works
directly with marginalized and under-served poor populations across Africa, with a focus on long-term
economic development. Local economic development is the key to poverty alleviation; therefore a
majority of USADF funding goes toward community-based groups. A major component of USADF’s
approach is directed toward helping to develop and grow small and medium-sized enterprises in Africa
that produce both economic gains and quality of life improvements. These gains are measured in terms of
more jobs, improved incomes, better work conditions, and greater access to educational and health
services.
In FY 2009, USADF achieved several significant steps forward in 2009 programs. USADF was able to
award over $25 million of quality grants and technical resources to improve lives and income levels to
many of the most marginalized and underserved communities in Africa. This amounts to a 36% increase
in program funding over 2008, and includes more than a 90% increase in the number of project grants
over 2007 and 2008 levels. At the same time, process time for critical grant activities have been reduced
by more than 50%. Quality control and monitoring and evaluation are a critical priority for all program
outputs and activities.
USADF’s operating model is one of low overhead to maximize the amount of appropriated dollars that
provide direct economic development assistance to the most underprivileged populations in Africa. In FY
2009, the Foundation continued to focus attention on lowering costs, speeding up delivery of services,
and improving our strategic partnership initiative. Overhead expenses did not significantly change from
FY 2008 while program funding increased by 36% over FY 2008 levels. USADF has pledged to be a
Federal agency model of openness and transparency and has taken significant actions to make this
happen, including launching a new public information directory on our web site.
Our vision is to help end the poverty of thousands of marginalized groups across Africa. Our success is
measured in lives improved, new economic opportunities created, and goodwill established. Our mission
is as applicable today, if not more so, than when USADF was founded in 1980. We look forward to
continued cooperation with Congress, U.S. Government agencies, and friends and experts throughout the
African development community.

Signed: 

/s/ 

Lloyd O. Pierson 

President and CEO 





                                                    1

                                 UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



                              MANAGEMENT'S DISCUSSION AND ANALYSIS


United States African Development Foundation Mission and Organizational Structure


Purpose:          Fostering hope, growth, and goodwill in Africa. 

Vision:           To end the poverty of a million Africans by investing in their ideas. 

Mission:          To support underserved communities in Africa with resources that help create better

                  economic opportunities for all.

The United States African Development Foundation (USADF), created in 1980, provides grants of up to
$250,000 to indigenous African organizations that benefit under served and marginalized 1 groups. The
Foundation has a unique mission among U.S. foreign assistance programs, by-passing layers of
inefficiencies and working directly with the neediest communities in Africa. The Foundation uses a
participatory approach to actively engage marginalized local community groups or enterprises in the
design and implementation of development projects. This approach ensures these programs are
distinctively African initiated and led, resulting in outcomes that best address the real needs of the
community. Project success and long term impact is further enhanced through USADF efforts to establish
a network of local support and technical service providers across Africa. Partner organizations are local
non-governmental organizations that provide project design, implementation and management support to
USADF grant recipients. Grant success is measured in terms of jobs created and sustained, increased
income levels, and improved social conditions.
                                                                            Country Project Table
USADF operates grant programs in 20 countries across Africa.                                 Active       Active Value
                                                                             Country
Currently, USADF has over 300 active project development                                    Projects         (USD)
grants valued at over $56 million. These grants are distributed as           Benin             14             2,261,363
shown in the table to the right.                                             Botswana          27             3,601,516
                                                                             Burkina Faso      11             1,456,759
The Staffing Table below shows the personnel required to                     Burundi           10             1,475,523
support USADF operations across a five year period. USADF has                Cape Verde        16             3,562,234
plans to further simplify organizational structures in 2010 to               Ghana             21             4,328,572
improve operational efficiencies. Plans to shift select contract             Guinea            17             2,731,988
positions to direct hire roles in 2010 are in a final review stage.          Liberia           12             1,994,239
                                                                             Malawi            10             1,988,934
Staff Table                                                                  Mali              21             3,745,376
                                                                             Mauritania        10             1,339,665
                                                                             Namibia           1                240,292
    Professional           End of FY   End of FY   Estimated
    Staffing Levels          2006        2009       FY 2010                  Niger             15             3,135,716
    Direct Federal Hires     29          25           29                     Nigeria           29             4,365,728
    PSC - Washington          3          13            3                     Rwanda            15             2,230,409
    PSC - Field              34          23           23                     Senegal           13             1,687,552
              Total          66          61           55                     Swaziland          6               866,553
                                                                             Tanzania          30             5,487,544
                                                                             Uganda            25             4,841,283
                                                                             Zambia            27             5,315,098
                                                                             Total            330            56,656,344




1Marginalized groups are people who have been disenfranchised from the political, economic and social fabric of the
broader society and who have significant needs that currently are not being addressed.


                                                          2

                                      UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



The organization chart below represents the outcome of these planned changes, pending final review and
approval by the Board of Directors.




Performance Summary and Discussion

The summary charts below reflect several aspects of USADF improved performance in 2009. USADF
increased the number of grants provided to marginalized groups in Africa, improved its disbursement
processing cycle times, and better balanced strategic partner collections with current year funds
utilization.

More Grants in More Countries

      $25M in New Project and Partner Grants, a 34% Increase over 2008 

      Funding in 20 Countries, Up 25% From 2008 

      Better Resource Utilization in 2009 (cumulative value of new obligations over time by Fiscal Year)


      More Grants ($ million)                     More Countries                             Better Resource Utilization
25
                                         20
                                             $ M illion
                                                                                     20



20

                                            15

                                                                                      15


15
                                                                                                                         FY09
                                            10
                                      10


10

                                                                                                                               FY08
                                             5
                                        5

 5

                                                                                                                                   FY07

                                             0                                        0
 0                                                                                          1/1          3/2   5/1   6/30      8/29 date
                                                     2007     2008        2009

         2007      2008       2009


                                                                     3

                                        UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



  Faster Grant Disbursement Processing

         1st Disbursement Turnaround Improved from 140 Days to 76 Days in 2009 

         Amount Of Project Funds Disbursed in 12 Month Period Improved by 32%

         1st Disbursement Process Now Six Months Earlier than FY 2007 


        Days to 1st Disbursement                 $ Million Disbursed                 1st Disbursement Rate
160
                                                                           80

                                            8
                                                             FY08
                                                                                         FY09

120
                                                                           60

                                            6

                                                                                                                FY07

80
                                                                            40

                                            4



40
                                                                            20

                                            2



  0
                                            0                                   0
           2007       2008      2009

                                                   2007       2008     2009
     3/ 31   6/30   9/29   12/29   3/30    6/ 29   9/ 28

  Better Strategic Partner Funds Utilization

       Strategic Partner Funds                                  2007             2008                                  2009
       New SP Funds Collected                                  $3.4M            $4.7M                                 $3.3M
       SP Funds Applied to Projects                            $2.3M             $1.0                                 $4.0M



  2009 Program Performance Discussion - Improving Grant Quality

  In 2009, USADF increased the volume and value of quality project development grants to marginalized
  groups in Africa. The number of grants increased from 80 in FY 2008 to over 150 in FY 2009. The value
  of the grants increased from $12.5 million to $20.7 million in the same period. Did the rapid increase in
  grants decrease the quality of the grants in 2009? Ultimately grant quality can only be determined by
  evaluating the actual results of a grant. Given the nature of development grants, an assessment of 2009
  grants cannot be made until the 2011 to 2014 timeframes. However, there are reasonable assurances that
  grant quality was maintained and improved in 2009 due to several factors. These factors include: African
  ownership, a better distribution of work across the calendar year, major productivity gains from work
  simplifications, and improved management practices. In addition, quality was maintained by
  strengthening several grant quality assurance measures in 2009. The following information expands on
  these points.

                  African Ownership

  Ownership and quality are tightly linked. USADF’s participatory development approach promotes greater
  African ownership. In 2009 USADF strengthened this model by focusing on more African input and
  decision-making in the grant process. Currently, all of the USADF Partner Organization staff are
  Africans from the host country in which they serve. There are 55 USADF staff members in Africa, of
  which 53 are Africans. Of the two non-African staff, the one American consultant will be departing in
  November, which leaves one part-time expatriate consultant remaining in Botswana. Additional steps
  were taken to ensure Grantees had a significant and guiding role in determining the nature of each project.
  USADF’s Africa designed and Africa owned approach has achieved major dividends in organizational
  focus and motivation overseas. Partners, representatives, and grantees state they feel they have much
  more involvement in the decision making process.


                                                                 4

                             UNITED STATES AFRICAN DEVELOPMENT FOUNDATION




           Better Work Distribution

                                             The chart (left) shows the rate at which USADF achieved
      $ M illion

20
                                          the $20.7 million funding level in 2009 compared to 

                                             similar funding activities in 2008 and 2007. Note that in

                                             2007 more than 70% of the funding occurred in the last 4 

 15
                                         weeks of the fiscal year. Typically compressed workloads 

                                             tend toward lower quality outcomes. In 2008 and 2009 the

                               FY09          funding of new grants occurred at essentially the same

 10
                                         rate. What accounts for the higher level of achievement in
                                             2009 is that the activity started much sooner in the year.
                                             One can see that the timing of the 2009 funding activities
                                  FY08
  5
                                         occurred well ahead of similar timeframes in 2007, and on
                                             average, was 60 days ahead of 2008 levels. From a quality
                                      FY07
                                             perspective, it is preferable to spread out work across a
  0                                          longer period of time and across more available resources. 

     1/1  3/2    5/1      6/30    8/29 date  In 2009, new grant funding was distributed across 20 

                                             different African countries compared to 16 countries in
2008 and 2007. This is a 25% increase in available resources to engage in the grant making processes in
2009.

           Work Simplification

The grant application and the grant project paper work products were simplified in 2009. Prior to 2008

and 2009, the application form and associated project paper were voluminous. Guidance for the project 

design was reduced from 70 pages to 12 pages – resulting in a simplification of the grant proposal

package that better retains the applicant’s original request and the Partner Organization’s input for the

proposed solution. 


           Management Improvements

Several important organizational improvements to the grant making process were initiated in 2008 and
were made operational in 2009. The improvements included the enhanced delegation of authority to the
Regional Directors, more focused and structured grant package reviews, and better management oversight
of the funding activities. First, in 2009, Regional Directors more effectively exercised their delegated
authority to make application screening and selection decisions and to conduct field reviews of grant
proposals. This minimized the inefficient and often ineffective reviews between Washington staff and the
Grantee and Partner Organizations, and preserved a greater degree of design ownership closer to Africa.
Second, in 2009, final grant proposal reviews were focused at two levels – design quality and compliance.
This resulted in a streamlined approval process. These two types of reviews maintained a better sense of
ownership and better leveraged areas of technical expertise. The specialization of review functions and
greater accountability for results are best practices that can improve quality levels. And third, the 2009
funding process included a stronger management component (Bi-Weekly Program Status Reviews) that
held Regional Directors (and their teams) accountable for funding targets, timeframes, and adherence to
design and review standards. Together, in 2009 these factors helped to ensure a higher level of
achievement.

USADF conducted a 2009 Funding Process Review Survey with Washington, Field Staff and Partners. Of




                                                    5

                              UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



the 38 people who responded to the survey 2 , 27 were field and partner staff from Africa. Over 90% of
respondents rated the 2009 funding process and associated documents as effective. A debrief session was
held with Washington staff on October 21, 2009 to discuss ways to improve the process and documents
for 2010.

Analysis of Financial Statements

USADF is pleased to report that in FY 2009 the Foundation continued to receive an unqualified opinion on all
financial statements from its independent auditors, Leonard G. Birnbaum & Company. Since FY 2001,
USADF has received an unqualified opinion on the Balance Sheet, the Statement of Net Costs, the Statement
of Net Position, and the Statement of Budgetary Resources.

Assets

USADF’s Fund Balance with Treasury increased, from $31.5 million at the end of FY 2008 to $35.8
million at the end of FY 2009. The difference of $4.3 million is due to a $2.5 million increase in FY 2009
appropriations over FY 2008 appropriations and the multi-year nature of grant disbursements. In FY 2009,
ADF obligated a historically high amount and number of grants. Grant funds, however, are disbursed over
a period of two to three years, resulting in the higher fund balance.

Cash and Other Monetary Assets consist of foreign currency donations made by African governments and
private-sector entities with which USADF has established strategic partnerships. The funds are held in
bank accounts in each country where a partnership is in effect. These assets increased, from $8.3 million
at the end of FY 2008 to $9.0 million at the end of FY 2009, primarily due to new donations from
strategic partners in Malawi, Mali and Uganda during the last month of FY 2009.

Liabilities and Net Position

Liabilities did not change significantly from FY 2008 to FY 2009. USADF’s Net Position (the sum of the
Unexpended Appropriations and Cumulative Results of Operations) at the end of 2009 as shown on the
Balance Sheet and the Statement of Changes in Net Position was $47.1 million, a $5.6 million increase
from the previous fiscal year. This increase is explained in the prior section regarding the Fund Balance
with Treasury. Unexpended Appropriations of $37.4 million represents funds appropriated by the
Congress for use over multiple years that were not expended by the end of FY 2009. Cumulative Results
of Operations of $9.7 million consists primarily of funds donated by strategic partners that were not
expended by the end of FY 2009.

Net Cost of Operations

The Net Cost of Operations is defined as the gross (i.e., total) cost incurred by the Agency, less any
exchange (i.e., earned) revenue. Program costs assigned to program activities, such as grants and
cooperative agreements, increased from $15.2 million in FY 2008 to $19.1 million in FY 2009, due
primarily to an increase in grant activities. Costs not assigned to programs, such as office expenses, staff
salaries, and other administrative costs, did not change significantly from FY 2008 to FY 2009. USADF is
continuing its efforts to become a more efficient organization.

Close to one-third of USADF’s non-program expenses are related to payroll. The next most significant
category of expense, also at approximately one-third, relates to the on-the-ground presence USADF

2
    The survey questions and responses maybe viewed online at:
http://www.zoomerang.com/Shared/SharedResultsPasswordPage.aspx?ID=L23ZUEF89GBD



                                                        6

                            UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



maintains in African countries with the field coordinator offices. The remaining one-third relates to rent,
travel, supplies, publications, training, contractual services, and information technology.

Budgetary Resources

USADF’s budgetary resources consist of its annual appropriations from Congress, which are available for
two years, and donations from strategic partners. USADF’s FY 2008 appropriations were $30 million; its
FY 2009 appropriations are $32.5 million. USADF received $3.8 million in donations from strategic
partners, representing a decrease of $900 thousand from the $4.7 million received in FY 2008.

Unobligated Balances increased from $10 million at the end of FY 2008 to $10.8 million at the end of FY
2009. Obligations Incurred line increased from $ 31.2 million in FY 2008 to $39.8 million in FY 2009.
The increase of $8.6 million is due to a 36% increase in program obligations and a $4 million increase in
recoveries of prior year unpaid obligations over FY 2008 levels.




                                                    7

                                  UNITED STATES AFRICAN DEVELOPMENT FOUNDATION




USADF Internal Controls, and Legal Compliance

Management Assurance Statements

General FMFIA Assurance Statement

It is my informed judgment, as the head of the United States African Development Foundation that I make 

an unqualified statement of assurance (no material weaknesses reported) to the adequacy and 

effectiveness of USADF internal controls to achieve the objectives of effective and efficient operations, 

reliable financial reporting, and compliance with applicable laws and regulations. 


Signed: 

/s/ 

Lloyd O. Pierson, President 


-----------------------------------------------------------------------------------------------------------------------------

Internal Control over Financial Reporting Assurance Statement

The United States African Development Foundation’s management is responsible for establishing and 

maintaining effective internal control over financial reporting, which includes safeguarding of assets and 

compliance with applicable laws and regulations. USADF assesses the effectiveness of USADF' internal 

control over financial reporting and is working toward full compliance with OMB Circular A-123, 

Management’s Responsibility for Internal Control. Based on the results of our assessment, the USADF 

can provide reasonable assurance that internal control over financial reporting as of September 30, 2009 is 

operating effectively and that no material weaknesses have been found in the design or operation of the 

internal controls over financial reporting. 


Signed: 

/s/ 

Lloyd O. Pierson, President 


-----------------------------------------------------------------------------------------------------------------------------


Annual Assurance Statement on Financial Management System

The United States African Development Foundation has been using Oracle Federal Financial System
hosted by National Business Center (NBC) under Department of Interior since FY 2004. Based on the
results provided in the FY 2009 SAS 70 Report on Oracle Federal Financial System, I am able to provide a
reasonable assurance that the USADF’s Financial Management Systems conforms to government-wide
requirements mandated by the FFMIA and OMB Circular No. A-127, Financial Management Systems,
section 7.


Signed: 

/s/ 

Lloyd O. Pierson, President





                                                               8

                             UNITED STATES AFRICAN DEVELOPMENT FOUNDATION




Other Management Information, Initiatives, and Issues

USADF’s Response to Ghana and Senegal Audits

The IG’s 2008 audits of USADF’s program and operations in Ghana and Senegal supported the changes
management had already initiated. USADF’s management team has been both proactive and also responsive
in aggressively implementing corrective actions throughout its programs. In an August 3, 2009 meeting in
Senegal, the RIG/DAKAR relayed to USADF President, Board of Directors, and to the US Embassy Dakar
Chargé d’ Affaires, that USADF’s proactive approach in responding to the IG’s recommendations should be
recognized. USADF is in the final stages of closing all of the audit recommendations.

An overview summary of the audit actions taken and how it has changed USADF’s operations overseas and in
Washington is identified below:

(1) Improved operational and program management structures in Ghana -- The new structure provides
    USADF Washington with better direct oversight of design and implementation of projects and improved
    responsiveness to fulfilling the needs of its clients.

(2) Filled vacant field staff positions in Senegal and replaced staff in Ghana -- The results of a highly
    competitive procurement review process of 43 applications resulted in USADF Ghana awarding a
    cooperative agreement to skilled African professionals to serve as Partner with the experience to assist
    grass root structures in developing their goals and objectives and obtaining a sustainable financial
    management system. Filling both the USADF Partner and Field Office vacant positions in Senegal
    enables USADF Washington to monitor the portfolio in a more timely and effective manner and to take
    remedial action efficiently and professionally.

(3) Provided extensive training to staff and Partners to improve reporting and compliance -- The recruitment
    of a qualified accounting firm as a new Partner in Ghana provides a more effective financial monitoring
    and training team with increased oversight and more efficient reporting on the sustainability of projects.
    The agency oriented the new Partners and Field staff on USADF’s internal control procedures, policies
    and procedures to include, but not limited to: program strategy, core values and culture, ethics training,
    audit process and financial management. USADF has recently developed a training division to ensure the
    policies, procedures, guidelines and lessons learned are disseminated in a timely, consistent and
    standardized format to include training in project analysis and design monitoring and remediation. For
    tighter management control and oversight, USADF has a biannual portfolio review of country programs,
    which includes quantifiable performance measure for projects and Partners. Also, performance plans are
    solidified to ensure primary responsibilities are understood. As a result, USADF Washington is receiving
    improved detailed reporting on the status of the projects.

(4) Improving technical assistance to grantees to include an increased emphasis on financial and asset
    management training -- The recruitment of a qualified accounting firm as Partner in Ghana and of an
    auditor as a Financial Officer in the Senegal Partner staff provides a more effective financial monitoring
    and training team with increased oversight as well as more efficient reporting on the sustainability of the
    project throughout the life of the grant. Recently, a Ghana Partner provided a six month training and site
    visit report which documented 60 site visits and the level of engagement and training provided to the
    grantees.

(5) Terminating grants and collecting reimbursement of the public’s funds -- USADF’s processes require that
    Portfolio reviews are ongoing and each project is visited, implementation issues identified and solutions
    determined with the grantee. Detailed remediation plans are developed for timely implementation of


                                                      9

                             UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



    corrective action to meet goals and objectives. Terminations of grants may be deemed necessary,
    especially when project management lacks commitment to the goals and objectives of the project and
    when attempts to correct poor financial management have failed. Collections of funds may be required
    when they are found to be mismanaged, or not used as intended, or when costs are ineligible or
    unsupported.

(6) Performing timely financial closeouts of expired grants -- USADF policies establish the procedures for the
    required financial closeouts of grants funded by the Foundation at the end of the grant period. Where
    close-out reveals that funds are due to the grantee, funds are paid promptly. Where funds are due the
    Foundation, the Foundation will take steps to collect. The closeout process provides the opportunity to
    assess the sustainability and to obtain an understanding of strengths and weaknesses in processes. Active
    projects benefit from the lessons learned.

(7) Updating several USADF policies	 -- USADF recognizes that standardizing and disseminating their
    processes and procedures to staff in USADF Washington and in the field diffuses any misconceptions on
    requirements. Updating policies is an ongoing process. However, updating manual sections, such as Grant
    and Cooperative Agreement Disbursement Procedures manuals, facilitates a timely disbursement to the
    grantees to meet their goals and objectives

OMB Circular A-123 Compliance Improvements

In past years, appropriate letters of assurance and statements in audit reports have been submitted by the
United States African Development Foundation. In November 2008, annual letters of assurance were
signed based on various internal control related materials, audits, and activities, including actions reported
to the Board of Directors USADF at the May 5, 2008 meeting of the Board related to improvements in
USADF internal controls related to internal audit capability, monitoring and evaluation, the finance
office, contracting, and related to improvements in program management related to regional program
coordinators, the Ghana and Nigeria programs.
The basis for past assurances is that USADF has appropriate management controls in place to ensure that
all internal controls are operating in accordance with applicable policies and procedures and are effective
in meeting the requirements contained in OMB Circular A-123 most of which are imposed by the Federal
Managers’ Financial Integrity Act (FMFIA) and the Federal Financial Management Improvement Act
(FFMIA).
Management has placed priority on identifying internal control issues and acting to improve processes
and practices where appropriate. Three examples during 2009 include: USADF identified violations of
tax regulations, self reported the issue to the Internal Revenue Service and negotiated a resolution of the
situation; and, USADF identified issues related to contracting and reached a decision to purchase an
information technology based procurement system and to technologically connect the financial and
procurement systems of the Foundation. USADF has also chosen to standardize the contracts for
Personal Service Contractors.

In 2010, management will further strengthen USADF’s internal control environment by adding a
formalized annual assessment process that goes beyond prior year practices. This enhanced approach will
become an institutional practice of the Foundation to increase the level and quality of Management’s
Annual Statements of Assurance on internal controls. The adoption of a continuous improvement internal
control process will include:
(1) A regular review of the organizational culture and structure: areas of authority and responsibility and
    delegations, reporting hierarchies, human capital policies, expectations of integrity and ethical
    patterns of behavior.



                                                     10

                              UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



(2) A risk assessment of internal and external factors and previous findings.
(3) Assessment of policies, procedures, mechanisms, segregations of duties, physical controls on assets,
    authorizations processes, documentation and access to documentation, including those related to
    information systems, and mechanisms of communication of information internally and externally.
(4) Monitoring the effectiveness 	of these processes as a normal course of business, including:
    identification and reporting of deficiencies and consideration and, where appropriate, planning and
    implementing corrective action.
A directive issued by the President on November 3, 2009 formally outlines the steps and timeframes
associated with the formal implementation of USADF’s enhanced internal control assurance process. A
copy is attached.

Internal Audit Function

Prior to the IG audit activities, USADF management moved to establish and strengthen an independent
internal audit capability that reports directly to the USADF President and the Board of Directors. The internal
audit function will focus its efforts on assessing compliance with USADF financial policy and practices at the
Country Coordinator Offices, USADF Partner Organizations, and the USADF project grantees. Each
assessment will be followed by an Internal Audit Report and follow-up project plan.

In 2009 the USADF Internal Audit unit made significant progress in implementing a systematic plan and
approach to review the financial management and accounting for USADF funds provided to project grants,
partner grants, and country coordinator offices.

                        Financial Audits in 2009        Scheduled       Completed
                        Projects Grants                       35             35
                        Partner Grants                        12              8

                        Coordinator Offices                    8              8


Integrated Contracting Practices
USADF will be implementing an automated Acquisition Management System in FY 2010 to improve the
procurement and contracting process through online records management, improvements to process controls
and reporting, greater standardization of policy, and increased assurances of compliance with the Federal
Acquisition regulation.

Grant Monitoring and Evaluation

In late FY 2008, the new monitoring and evaluation unit at USADF commissioned POSDEV, an independent,
African NGO based in Ghana to conduct an extensive program and grant evaluation across 15 countries in
Africa. The final reports and findings are due by the end of 2009.

The Program evaluation has the following three components:

    1)	 Standardized survey of all USADF-funded clients with active projects underway for at least two years
        and projects that expired within the past 3 years.
    2)	 In-depth evaluation of a random sample of 40 percent of the projects included in the client survey.
        The in-depth evaluations will be based on field visits and open-ended interviews with clients, partner
        organizations, country program coordinators, USADF staff, and other stakeholders; and,
    3)	 Standardized sample surveys of workers and farmers or other primary raw material suppliers for the
        projects included in the in-depth evaluations.



                                                      11

                             UNITED STATES AFRICAN DEVELOPMENT FOUNDATION




Limitations of Financial Statements

USADF's principal financial statements have been prepared to report the financial position and results of
operations, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared
from books and records in accordance with generally accepted accounting principles (GAAP) for federal
entities and the formats prescribed by the Office of Management and Budget, the statements are in addition to
the financial reports used to monitor and control budgetary resources which are prepared from the same books
and records.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




                                                     12

                              UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



                              ANNUAL PERFORMANCE INFORMATION 



Program Achievements

It should be noted that USADF achieved several significant steps forward in 2009 programs. Working
from a base budget of $32.5 million, USADF was able to provide over $25 million of quality grants and
technical resources to improve lives and income levels to many of the most marginalized and underserved
communities in Africa. This amount is a 36% increase in program funding over 2008, and includes more
than a 90% increase in the number of project grants over 2007 and 2008 levels. At the same time, process
times for critical grant activities have been reduced by more than 50%. Quality control and monitoring
and evaluation are a critical priority for all program outputs and activities.

In 2009, USADF used over $4 million of African strategic partner matching funds to stretch U.S. tax
dollars further in reaching under-served communities. This is the highest level in the history of the
agency. These combined efforts translate into a much more efficient use of public funds and much better
service levels for the neediest in Africa.

Management has established seven operational priorities for FY 2009 and 2010 to ensure that USADF is
effectively meeting its obligations to the United States taxpayer and making a positive impact in Africa.
The majority of these focus on USADF programming activities and achieving greater cost effectiveness in
operations in order to increase the amount of appropriated dollars going directly to poor communities in
Africa.

 2009 - 2010 Operational Priorities
 1. Model high effectiveness and low overhead operations.
 2.	 Focus program activities on marginalized communities in Africa.
 3.	 Invest in Africans and their ideas through participatory development.
 4.	 Ensure projects produce long term social and economic results.
 5.	 Promote African led and managed field project support.
 6.	 Achieve the highest levels of openness and transparency in the U.S. government
 7.	 Support and develop an equal opportunity, results-driven staff team that rewards hard work, dedication to the
     mission, and personal success.

Several important management actions are underway to improve on programming, financial, and
personnel practices. A number of the most important steps have been completed to simplify and
streamline the project review and approval processes and lower costs to more efficiently achieve USADF
mission objectives. Cost reduction actions taken to date include major contractor reductions,
compensation adjustments, elimination of redundant regional office functions, and de-layering USADF’s
organizational structure.

Three simple performance measures help ensure USADF is maximizing the use of funds for development
grants in Africa, is efficiently moving funds to Africa with minimum delays and is consistently moving
toward lower overhead levels. The table below shows USADF achievements for 2005 through 2009. In
2009 USADF increased the number of grants provided to marginalized groups in Africa, significantly
improved its disbursement processing cycle times, and better balanced strategic partner collections with
current year funds utilization.




                                                        13

                                  UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



Comparative Performance Table:
                          FY 2005           FY 2006           FY 2007           FY 2008          FY2009           FY 2009
     Measure            Achievement       Achievement       Achievement       Achievement        Target         Achievement
Development Grant
                         $16 million      $13.5 million      $15 million       $18 million     $27 million      $25 million
Funding Levels1
Grant 1st
Disbursement             Not tracked      Not Tracked         214 days          146 days         45 days          78 days
Timing
Operating Expense
                            34%               38%               46%               36%             <36%             35%
Ratio2
                    1
                     Cooperative Agreement Grants and Project Grants including use of Strategic Partner Funds
                    2
                     Operating Expenses / Current Year Appropriations

Development grant funding levels increased sharply from $18 million in 2008 to $25 million in 2009. As
discussed previously (see MD&A section on Improving Grant Quality), the volume of work was spread
across a greater number of countries and over a longer period of time than prior years. The target of $27
million in grant funding was missed primarily due to two factors. In FY 2009, programming in Guinea
was suspended for political reasons. USADF had planned to do $1.5 million in project grants and had a
pipeline of projects that were valued at $1.4 million. Additionally, management action, which was taken
to avoid an unusually high peak of project grants in FY 2009 being followed by a deep drop in project
grant levels in FY 2010 (due to expected budget cuts in 2010), led to carrying forward selected projects
grants valued at $1 million for funding in 2010.

Disbursement timing represents the number of days between the date a legal grant agreement was
established and the date funds were released for use by the grantee. USADF has made significant steps to
reduce the period. In FY 2009, USADF made very significant improvements in this cycle time, reducing
the time from 146 days to 76 days. This achievement fell short of the targeted level of 45 days due to
under performance in eight of twenty countries. Improved training and in country resource capabilities
are expected to improve performance in 2010.

Operating Expense levels continue to be a challenge. USADF budget priorities are to maximize the
amount of appropriated funds for quality programs to marginalized communities in Africa while
maintaining sufficient levels of oversight and internal controls. Maintaining FY 2009 program levels in
FY 2010 and addressing a 12% reduction in available funds ($2.5 million of reduced funding and less
carry forward funds) will require a two step process. Step One is to straight line FY2009 expenditure
levels across program and administration support budgets. This step includes reviewing the earlier plan to
convert a number of PSC positions to direct hires. This step will hold operating expenses to the $11.5
million mark.     On the program side of the budget, straight lining means that project grants and partner
development grants will remain at the same level as FY 2009. Step Two begins the process of lowering
high personnel costs by initiating an accelerated retirement program to lower year over year personnel
costs. The targeted personnel annual rate cost reduction is $1 million. By the end of 2010, USADF aims
to be on an annual operating expense spending pattern of $10.5 million, which in turn will maintain
USADF at the 35% operating expense range.

Program Evaluations

Each project grant funded by USADF includes specific set of goals and objectives, and a line item budget
as a part of the standard grant agreement. For active grants, these documents may be viewed online at the
USADF website. Progress toward achievement of these goals and an accounting of the use of grant funds
is monitored on a quarterly basis through a grantee report. The grantee quarterly reports are reviewed by
Partner Organizations, Country Coordinators, and USADF Washington staff to closely track and assess
the grantee’s progress and performance. The grant agreements and quarterly reports are on file with


                                                              14

                                 UNITED STATES AFRICAN DEVELOPMENT FOUNDATION



USADF and may be provided upon request. Partner Organizations, USADF Country Coordinators, and
USADF Washington staff (including the President and Board of Directors) also conduct regular
monitoring site visits to each USADF grantee, and summarize their findings in site visit reports.
Timeframes for USADF grants range from two to five years in duration. At the end of a grant period, the
Partner Organizations and USADF staffs complete a grant close-out process that includes a full
accounting for the use of grant funds, and an assessment of the project’s outcomes and its sustainability.

Each partner organization funded by a cooperative grant agreement provides USADF with a monthly
report that includes both project and financial management information used by USADF to assess the
performance of the grantee. These reports are on file with USADF and may be provided upon request. A
new partner performance and assessment model was developed in FY 2009 for implementation in FY
2010.

As discussed previously (see MD&A section on Grant Monitoring and Evaluation), USADF
commissioned an external program evaluation on September 23, 2008 with the Pan-African Organization
for Sustainable Development (POSDEV). POSDEV is a non-governmental organization that was created
in 1997 to build an alliance of indigenous African NGOs committed to the empowerment of local
grassroots movements for self-reliant, sustainable development. POSDEV’s membership consists of
thirteen African NGOs. Fifteen country programs were included: Benin, Botswana, Cape Verde, Ghana,
Guinea, Liberia, Mali, Niger, Nigeria, Rwanda, Senegal, Swaziland, Tanzania, Uganda, and Zambia.
Draft reports are currently under review. Final reports are expected by the end of 2009.

Other Program Performance Indicators

A detailed set of USADF performance indicators is displayed in the table below. Performance indicators
in FY 2008 mostly showed significant improvements in the effectiveness of USADF funds to help grow
Small and Medium Sized Enterprises in Africa. Cumulative revenue growth nearly doubled from $56
million to $112 million. The “investment multiplier” increased from 3.5 in FY 2007 to 4.9 in FY 2008.
This indicator tracks how much sales revenues increased for each USADF dollar provided to that
enterprise. Both the export growth measure and the number of beneficiaries rose sharply in 2008.
Although considerable time and effort is needed to develop local growth engines, USADF grantees prove
they can productively use USADF funds to increase revenues and expand operations.

Key Performance Indicators FY 2008
                     Indicator                     FY 06 Actual      FY07 Actual         FY08 Actual
  Cumulative Revenue Growth, active and
                                                     $43,288           $63,044            $112,355
  recently expired (USD thousands)
  Investment Multiplier, active and recently
                                                       2.0               3.8                 6.3
  expired
  Cumulative Export Revenue Growth, active and
  recently expired (USD thousands)                     ND              $4,970              $18,038

  Net Income Before Income Taxes and
                                                      $3,106           $11,952             $17,364
  Depreciation, active (USD thousands)
  Profitability, active                               44.0%            71.0%               68.7%
  Owners, Full-Time Workers, and Principal Raw
  Material Suppliers or Farms, active                 46,553           44,464              106,814

  Salaries, wages, and bonuses paid by grantees,
                                                       ND                ND                $5,640
  active (USD 000)
  Sustainability, expired                             62%               84%                 79%




                                                       15

November 3, 2009




               UNITED STATES AFRICAN DEVELOPMENT FOUNDATION 

                           MESSAGE FROM THE CFO 


I am pleased to present the FY 2009 comparative Financial Statements for the United States
African Development Foundation. These statements were prepared in accordance with generally
accepted accounting principles in the U.S.

USADF has no material weaknesses or instances of noncompliance to report. The agency is in
full compliance with the Federal Managers Financial Integrity Act, the Federal Financial
Management Improvement Act, and all other laws and regulations to which the agency is
subject.


Signed:



/s/
William E. Schuerch
Chief Financial Officer




                                             16

                             LEONARD G. BIRNBAUM AND COMPANY, LLP
                                        CERTIFIED PUBLIC ACCOUNTANTS
                                               WASHINGTON OFFICE
                                              6265 FRANCONIA ROAD
                                            ALEXANDRIA, VA 22310-2510


                                                   703-922-7622
                                                FAX: 703-922-8256
LESLIE A. LEIPER	                                                                                       WASHINGTON, DC
LEONARD G. BIRNBAUM 	                                                                                SUMMIT, NEW JERSEY
DAVID SAKOFS 	                                                                                  REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE



                                     INDEPENDENT AUDITOR’S REPORT

        To the Board of Directors and the President, 

        United States African Development Foundation: 


        We have audited the United States African Development Foundation’s (USADF) Balance
        Sheets, Statements of Net Cost, Statements of Changes in Net Position, and Statements of
        Budgetary Resources (Annual Financial Statements) as of, and for the years ended,
        September 30, 2009 and 2008; we have considered internal control over financial
        reporting in place as of September 30, 2009; and we have tested compliance with selected
        laws and regulations.

        In our opinion, USADF’s 2009 and 2008 Annual Financial Statements are presented
        fairly in all material respects.


        We found the following:

             •	 no instances of material weakness in the internal controls over financial reporting,
             •	 no instances of significant deficiencies in USADF’s internal control, and
             •	 no instances of noncompliance with selected provisions of applicable laws and
                regulations involving USADF’s financial management system.

        Each of these conclusions is discussed in more detail below. This report also discusses 

        the scope of our work. 


                                     ANNUAL FINANCIAL STATEMENTS

        In our opinion, USADF’s 2009 and 2008 Annual Financial Statements, including the 

        notes thereto, present fairly, in all material respects, USADF’s financial position as of 

        September 30, 2009 and 2008, and its net cost of operations, changes in net position, and 

        use of budgetary resources, for the years then ended, in conformity with accounting 

        principles generally accepted in the United States of America. 




                                                            17

                          MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS 

                                     INTERNAL CONTROL


In planning and performing our audits of the USADF’s Annual Financial Statements as of, and for
the years ended, September 30, 2009 and 2008, in accordance with auditing standards generally
accepted in the United States of America, we considered USADF’s internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the Annual Financial Statements but not for the purpose of expressing an opinion on the
effectiveness of USADF’s internal control. Accordingly, we do not express an opinion on the
effectiveness of USADF’s internal control. We limited our consideration of internal control to
those controls necessary to achieve the objectives described in the Office of Management and
Budget’s (OMB) Bulletin 07-04, Audit Requirements for Federal Financial Statements. We did not
consider all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient
operations.

The purpose of internal control is to provide management with reasonable, but not absolute,
assurance that the following objectives are met:

       •	 transactions are properly recorded and accounted for to permit the preparation of
          reliable financial reports and to maintain accountability over assets;

       •	 funds, property, and other assets are safeguarded against loss from unauthorized
          acquisition, use, or disposition; and

       •	 transactions, including those related to obligations and costs, are executed in
          compliance with laws and regulations that could have a direct and material effect on the
          financial statements and other laws and regulations that the OMB, or USADF
          management have identified as being significant for which compliance can be
          objectively measured and evaluated.

Our consideration of internal control over financial reporting would not necessarily identify all
deficiencies in internal control that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. Under standards issued by the American Institute of Certified
Public Accountants, a significant deficiency is a deficiency, or a combination of deficiencies, in
internal control that is less severe than a material weakness, yet important enough to merit attention
by those charged with governance.

A material weakness is a deficiency, or combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity’s financial statements will
not be prevented, or detected and corrected on a timely basis. We noted no matters that we
considered to be material weaknesses as defined herein.

                                                   18

                   MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS 

We noted certain other internal control issues that we have reported to USADF’s management in a
separate letter dated November 3, 2009.

                     COMPLIANCE WITH LAWS AND REGULATIONS

USADF’s management is responsible for complying with laws and regulations applicable to
USADF. As part of obtaining reasonable assurance about whether the financial statements are free
of material misstatement, we performed tests of USADF’s compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statements amounts, and certain other laws and regulations specified in
OMB Bulletin 07-04. We limited our tests of compliance to these provisions, and we did not test
compliance with all laws and regulations applicable to USADF. The objective of our audit of the
annual financial statements, including our tests of compliance with selected provisions of
applicable laws and regulations, was not to provide an opinion on overall compliance with such
provisions. Accordingly, we do not express such an opinion.

Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations that cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or
that sensitivity warrants disclosure thereof. The results of our tests of compliance with laws and
regulations disclosed no material instances of noncompliance.

                         RESPONSIBILITIES AND METHODOLOGY

USADF management has the responsibility for the following:

       •	 preparing the Annual Financial Statements and other accompanying information in
          conformity with accounting principles generally accepted in the United States of
          America;

       •	 establishing and maintaining effective internal control; and

       •	 complying with applicable laws and regulations.

Our responsibility is to express an opinion on the financial statements based on our audit. Auditing
standards generally accepted in the United States of America require that we plan and perform the
audit to obtain reasonable assurance about whether the Annual Financial Statements are free of
material misstatement and presented fairly in accordance with accounting principles generally
accepted in the United States of America. We considered USADF’s internal control for the
purpose of expressing our opinion on the annual financial statements referred to above and not to
provide an opinion on internal control. We are also responsible for testing compliance with
selected provisions of applicable laws and regulations that may materially affect the financial
statements.



                                                  19

                  MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS 

In order to fulfill these responsibilities, we took the following actions:

       	 We examined, on a test basis, evidence supporting the amounts and disclosures in the
          annual financial statements;

       	 We assessed the accounting principles used and significant estimates made by
          management;

       	 We evaluated the overall presentation of the Annual Financial Statements;

       	 We obtained an understanding of the internal control over financial reporting by
          obtaining an understanding of USADF’s internal control, determined whether the
          controls had been place in operation, assessed control risk, and performed tests of
          controls;

       	 We tested compliance with selected provisions of laws and regulations that may have a
          direct and material effect on financial statements;

       	 We obtained written representations from management; and

       	 We performed other procedures, as we considered appropriate under the circumstances.

We performed our work in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and the provisions of OMB
Bulletin 07-04. We believe that our audits provide a reasonable basis for our opinion.

The Management’s Discussion and Analysis is supplementary information required by OMB
Circular A-136, Financial Reporting Requirements, and the Federal Accounting Standards
Advisory Board. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of the
supplementary information. However, we did not audit the information and express no opinion on
it.

This report is intended for the information of the Inspector General of U.S. Agency for
International Development and management of the United State African Development Foundation,
OMB, the Government Accountability Office, the Department of Treasury, and Congress and is not
intended to be and should not be used by anyone other than those specified parties. This restriction
is not intended to limit the distribution of this report, which is a matter of public record.




                                               Leonard G. Birnbaum and Company, LLP
Alexandria, VA
November 3, 2009

                                                   20

                   MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS 

                              United States African Development Foundation 

                                           BALANCE SHEETS 

                                   As of September 30, 2009 and 2008 


                                                                                          FY 2009           FY 2008
ASSETS

    Intragovernmental:
         Fund balance with Treasury (Note 3)                                         $ 35,844,724       $ 31,478,499
    Total intragovernmental                                                            35,844,724         31,478,499

    Cash and other monetary assets (Note 4)                                               9,045,747         8,276,924
    Accounts receivable, net (Note 5)                                                             -               925
    Advances and prepayments (Note 6)                                                     2,431,168         2,090,886
    General property, plant and equipment – Net (Note 7)                                    608,180           676,622


TOTAL ASSETS                                                                         $ 47,929,819       $42,523.856


LIABILITIES

    Intragovernmental:
         Accounts payable                                                             $             -   $    157,965
    Total intragovernmental                                                                         -        157,965

    Accounts payable                                                                  $    388,765           419,143
    Other (Note 8)                                                                         489,728           400,449

TOTAL LIABILITIES                                                                     $    878,493      $    977,557

NET POSITION
   Unexpended Appropriations                                                           37,350,742        32,344,209
   Cumulative Results of Operations                                                     9,700,584         9,202,090
   TOTAL NET POSITION                                                                  47,051,326        41,546,299

TOTAL LIABILITIES AND NET POSITION                                                    $47,929,819       $42,523.856




                                                            21

                              The accompanying notes are an integral part of these statements.
                            United States African Development Foundation 

                                    STATEMENTS OF NET COST 

                           For the Years Ended September 30, 2009 and 2008 



                                                                                         FY 2009          FY 2008 

PROGRAM COSTS 


    Gross Costs                                                                       $ 19,102,782     $ 15,270,768 


    Less: earned revenue                                                                           -       (17,380) 


    Net program costs                                                                   19,102,782       15,253,388



Cost not assigned to program                                                            10,718,779       10,535,962


NET COST OF OPERATIONS                                                                $ 29,821,561     $ 25,789,350




                                                             22

                               The accompanying notes are an integral part of these statements.
                             United States African Development Foundation 

                           STATEMENTS OF CHANGES IN NET POSITION 

                            For the Years Ended September 30, 2009 and 2008 




                                                                                       FY 2009         FY2008

Cumulative Results Of Operations:

    Beginning Balances                                                               $ 9,202,090     $ 8,256,521
    Adjustments:
     Corrections of errors (Note 9)                                                             -     (1,247,505)
    Beginning Balances, as adjusted                                                     9,202,090      7,009,016

Budgetary Financing Sources:
   Appropriations used                                                                26,259,795      23,019,515

Other Financing Sources (Non-Exchange):
   Donations and forfeitures of property                                                3,809,553      4,713,923
   Transfers in/out reimbursement                                                          (2,047)             -
   Imputed financing                                                                      252,754        231,606
   Other                                                                                        -         17,380

 Total Financing Sources                                                              30,320,055      27,982,424
 Net Cost of Operations                                                               29,821,561      25,789,350

 Net Change                                                                               498,494      2,193,074

    Cumulative Results Of Operations:                                                   9,700,584      9,202,090


Unexpended Appropriations:

 Beginning Balances                                                                   32,344,209      24,359,219
 Adjustments:
   Corrections of errors (Note 9)                                                              -       1,247,505
 Beginning Balances, as adjusted                                                      32,344,209      25,606,724


Budgetary Financing Sources:
   Appropriations received                                                            32,500,000      30,000,000
   Other adjustments                                                                  (1,233,672)       (243,000)
   Appropriation used                                                                (26,259,795)    (23,019,515)
     Total Budgetary Financing Sources                                                 5,006,533       6,737,485

     Total Unexpended Appropriations                                                  37,350,742      32,344,209

     Net Position                                                                    $47,051,326     $41,546,299




                                                           23

                             The accompanying notes are an integral part of these statements.
                           United States African Development Foundation 

                          STATEMENTS OF BUDGETARY RESOURCES 

                          For the Years Ended September 30, 2009 and 2008 

                                                                                      FY 2009         FY2008

BUDGETARY RESOURCES

   Unobligated Balance, brought forward, October 1:                                 $10,003,364     $ 4,505,790

   Recoveries of Prior year unpaid obligations                                         6,208,971     2,233,710

   Budget Authority
     Appropriation                                                                   32,500,000     30,000,000
     Spending Authority from offsetting collections (gross)                           3,189,843      4,731,303

   Permanently not available                                                          (1,233,671)      (243,000)

TOTAL BUDGETARY RESOURCES                                                           $50,668,507     $41,227,803

STATUS OF BUDGETARY RESOURCES

   Obligations Incurred – Direct                                                     39,803,026     31,224,438

   Unobligated balances (Note 3) 

     Apportioned
                                                                      5,363,781      3,558,027
     Exempt from apportionment
                                                        2,363,731      3,737,028

   Unobligated balances – unavailable (Note 3)                                         3,137,969      2,708,310

TOTAL STATUS OF BUDGETARY RESOURCES                                                 $50,668,507     $41,227,803

CHANGE IN OBLIGATED BALANCE

   Obligated Balance, Net – as of October 1
     Unpaid Obligations, brought forward                                             29,752,058     26,742,043

   Obligations Incurred                                                              39,803,026     31,224,439

   Gross Outlays                                                                    (29,321,123)    (25,980,713)

   Recoveries of prior year unpaid obligations, actual                                (6,208,971)    (2,233,710)

   Obligated Balance, Net - End of Period
     Unpaid Obligations                                                              34,024,990     29,752,058

NET OUTLAYS
   Gross Outlays                                                                     29,321,123     25,980,713
   Net outlays                                                                       29,321,123     25,980,713




                                                          24
                            The accompanying notes are an integral part of these statements.
                                United States African Development Foundation 

                                      Notes to the Financial Statements 

                                           As of September 30, 2009 



Note 1. Organization

    The United States African Development Foundation (“USADF” or “the Foundation”) is a government-owned
    corporation established by Congress under the African Development Foundation Act in 1980 and began
    operations in 1984. The Foundation is the principal agency of the U.S. Government that supports community-
    based, self-help initiatives that alleviate poverty and promote sustainable economic and social development in
    Africa at the grassroots level. The Foundation’s headquarters are in Washington, D.C. USADF maintains
    partnerships with local organizations, staffed with African professionals, in each of the countries in which it
    operates. Over the past 23 years, the Foundation has funded more than 1600 projects in 34 African countries.


Note 2. Significant Accounting Policies

    A. Basis of Presentation

    The accompanying financial statements have been prepared on the accrual basis to report the financial position
    and results of operation in accordance with the concepts and standards contained in the Statements of Federal
    Financial Accounting Standards, as required by the Chief Financial Officers Act of 1990. These statements have
    been prepared from the books and records of the Foundation in accordance with the form and content for federal
    financial statements specified in the Office of Management and Budget (OMB) in OMB Circular No A-136,
    Financial Reporting Requirements, as amended, and the Foundation’s accounting policies, which are
    summarized in this note.

    B. Basis of Accounting

    Transactions are recorded on an accrual basis. Grants are recorded when obligated and expenses are recognized
    when the funds are expended, without regard to receipt or payment of cash. The preparation of the financial
    statements in conformity with generally accepted accounting principles requires management to make estimates
    and assumptions that affect the reported amounts of assets and liabilities, disclosure of contingent assets and
    liabilities at the date of the financial statements, and the reported amounts of grants and expenses during the
    reporting period. Actual results will invariably differ from those estimates.

    C. Fund Balances with Treasury and Cash

    The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for which the
    Foundation is authorized to make expenditures and pay liabilities. In addition, commercial, noninterest bearing
    accounts (in local currencies) are maintained with Barclays Bank of Botswana, Citibank Nigeria, and Banco
    Comercial do Atlantico in Cape Verde, Standard Chartered Bank in Ghana, Ecobank in Mali, Citibank and
    Zenith Bank in Nigeria, First National Bank of Swaziland in Swaziland, Standard Chartered Bank in Zambia,
    EcoBank Guinea, EcoBank Benin, Standard Chartered Uganda, Banque Commerciale du Rwanda and National
    Bank of Malawi to process grant funds for those countries. Governments with whom USADF has entered
    Strategic Partnerships deposit donations into these accounts. In general, grants are funds equally with
    appropriated funds and donated funds. USADF controls all disbursements from these accounts.




                                                          25

                            The accompanying notes are an integral part of these statements.
D. Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are denominated in local
currencies to facilitate accounting by the recipient organizations. Depending on the nature of the transaction,
foreign currencies are translated into dollars at the actual exchange rate received by the Foundation when the
transaction is made or at the prevailing exchange rate at the beginning of the month in which the transaction
occurred. The value of obligations incurred by the Foundation in foreign currencies varies from time to time
depending on the current exchange rate. The Foundation adjusts the value of its obligations at the end of each
quarter during the year to reflect the prevailing exchange rates. Downward adjustments to prior year obligations
based on favorable foreign currency exchange rates will be made available for obligation if the adjustment
occurs within the Foundation’s authorized two year funding period. Upward adjustment to prior year obligations
based on unfavorable foreign currency exchange rate with the U.S. dollar will be made from funds made
available for upward adjustments, if any, or from currently available funds.

E. Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a three-month
period. Grantees report to the Foundation periodically on the actual utilization of these funds. For purposes of
these financial statements, the Foundation treats disbursements to grantees as advances. The advance is reduced
when the grantee reports expenditures. The total grant advance is the total amount disbursed to the grantee less
the total expended for open (nonexpired) grants as of the reporting date. In order to ensure timeliness in
reporting grantee expenditures, the Foundation will use estimates to complete to calculate the last quarter’s
grantee expenditures based on historical expenditure trends since 1996 and disbursement activity funding that
quarter’s activity. The actual expenditures adjustments will be reported in the following quarter’s financial
statements. Once a grant has closed (expired or cancelled) any excess disbursement is reclassified as an
Accounts Receivable.

F. Travel Advances

Advances are given to USADF employees for official travel. Travel advances are recorded as expenses upon
receipt of employee travel vouchers.

G. Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year lease. Equipment
is depreciated using the straight–line method over useful lives, which is estimated at five years. Equipment with
an acquisition cost of less than $5,000 or less than two years of life is expensed when purchased.

H. Accounts Payable

Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors, for goods and
services received by USADF.

I.   Contingencies

The Foundation is a party in various administrative legal actions and claims brought by or against it. According
to the Foundation’s legal counsel, the likelihood of unfavorable outcomes for all these legal actions and claims is
remote. In the opinion of the Foundation’s management, the ultimate resolution of these proceedings, actions,
and claims will not materially affect the financial position or results of operations of the Foundation.

J.   Annual, Sick, and Other Leave

Annual, sick, and other leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year,
the Foundation calculates the value of the accrued annual leave at the end of the year based on current pay rates.
                                                       26
                         The accompanying notes are an integral part of these statements.
    Funding for payment of accrued annual leave at the end of the year will be taken from future financing sources.
    Sick leave and other types of nonvested leave are expensed as taken.
    K. Retirement Plan

    The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the Federal
    Employees Retirement System (FERS). The Foundation makes statutory contributions to the Office of
    Personnel Management for employees enrolled in each plan. The Foundation does not report accumulated
    assets, plan benefits or unfunded liabilities, if any, attributable to its employees. The Office of Personnel
    Management reports such amounts.

    L. Trust Fund

    The Foundation maintains a Trust Fund with the U.S. Treasury in accordance with its gift authority.

Note 3. Fund Balances with Treasury

    A. Fund Balances:
                                                                                      FY 2009        FY 2008
        General Funds                                                            $    35,808,570   $  31,431,866
        Trust Fund                                                                        36,154          46,633
                Total                                                            $    35,844,724   $ 31,478,499

    B. Status of Fund Balance with Treasury:
                                                                                      FY 2009          FY 2008
                            Unobligated Balance
                                    Available                                     $  5,363,781     $    3,558,027
                                    Unavailable                                      3,137,969          2,708,310
                                    Exempt from apportionment                           36,154             41,158
                            Obligated balance not yet disbursed                     27,306,820         25,171,004
                            Total                                                 $ 35,844,724     $   31,478,499

    C. Other information:
                                                                                      FY 2009          FY 2008
    Unused funds in expired appropriation
     that are returned to Treasury at the end of a fiscal year                   $     1,233,672   $             ­

Note 4. Cash and Other Monetary Assets

USADF’s funds held outside the Treasury consist of local currency donations made by African governments and
certain private sector entities for program purposes in each respective country. September comparative balances are
summarized below
                                                                                  FY 2009            FY 2008
         EcoBank Mali                                                              1,791,968            1,815,085
         Stanbic Bank of Uganda                                                    1,449,909              790,488
         EcoBank Benin                                                             1,098,828              580,206
         Barclays Bank of Botswana                                                 1,020,386            1,020,934
         Cape Verde                                                                  707,001              726,110
         National Bank of Malawi                                                     673,333                     -
         Banque Commerciale du Rwanda                                                546,191              572,578
         Zenith Bank Nigeria – Kano                                                  404,908            1,044,143
         EcoBank Guinea                                                              367,572              588,404
         Standard Chartered Ghana                                                    342,508              577,469
         EcoBank Senegal                                                             200,479              220,706
         Zenith Bank Nigeria – Kaduna                                                291,810              143,498

                                                            27
                              The accompanying notes are an integral part of these statements.
        First National Bank Swaziland                                                     84,384              88,816
        Citibank Nigeria                                                                  33,473              43,211
        Standard Chartered Zambia                                                         32,997              65,276
        Total Funds Held Outside Treasury                                        $     9,045,747      $    8,276,924


Note 5. Accounts Receivables, Net

All accounts receivable consist of collectibles from grantees when USADF funds are found to be used for unintended
purpose, or for ineligible or unsupported costs. A 100% allowance for uncollectible amounts is estimated as USADF
has little prior history of collection activities. USADF’s accounts receivables, net of September 30, 2009 and 2008
are summarized below:
                                                                                  FY 2009                FY2008

        Accounts receivables                                                     $       937,509      $           925
        Allowances for loss on accounts                                                 (937,509)                   -

        Total                                                                    $                -   $           925


Note 6. Advances

    USADF’s advances as of September 30, 2009 and 2008 are summarized below:
                                                                         FY 2009                          FY2008

        Grants                                                                   $     2,431,168      $    2,086,286
        Travel                                                                                 -               4,600

        Total                                                                    $     2,431,168      $    2,090,886


Note 7. Property, Plant and Equipment, Net

    Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service life is two years
    or more. Equipment with an acquisition cost of less than $5,000 or less than two years of life is expensed when
    purchased.
         USADF’s property, plant, and equipment as of September 30, 2009 and 2008

                                                                                     FY 2009              FY 2008

                 Equipment, at cost                                              $     1,483,225      $    1,343,751
                 Accumulated depreciation                                               (875,045)           (667,129)
                 Equipment, net                                                  $       608,180      $      676,622

Note 8. Other Liabilities

    Other liabilities represent amounts accrued for employee payroll and annual leave.
                                                                                      (Current)           (Current)
                                                                                      FY 2009             FY 2008

        Employees’ accrued salary                                                $       170,766      $      152,031
        Accrued annual leave                                                             318,962             248,418
        Total                                                                    $       489,728      $      400,449
                                                            28
                              The accompanying notes are an integral part of these statements.
Note 9. Leases
   The space in which the Foundation Headquarters operates is leased by the Foundation through Ten year lease
   until May 31, 2018. The total amount of funding commitment is detailed in Table 1.
   USADF also enters into year-to-year leases in the countries with established Country Representative Offices.


                                           TABLE 1 – USADF Headquarters’ 

                                        Space Lease – Total Future Payment Due

                       Year                              Dates                             Amount

                      Year 2                June 1, 2009 - May 31, 2010                      $716,305
                      Year 3                June 1, 2010 - May 31, 2011                      $734,209
                      Year 4                June 1, 2011 - May 31, 2012                      $752,584
                      Year 5                June 1, 2012 - May 31, 2013                      $771,430
                      Year 6                June 1, 2013 - May 31, 2014                      $806,766
                      Year 7                June 1, 2014 - May 31, 2015                      $826,868
                      Year 8                June 1, 2015 - May 31, 2016                      $847,599
                      Year 9                June 1, 2016 - May 31, 2017                      $868,801
                     Year 10                June 1, 2017 - May 31, 2018                      $890,474

                     TOTAL                                                                $ 7,215,036



Note 10. Correction of Errors
   On the Statement of Changes in Net Position for fiscal year ended September 30, 2008 a correction was made to
   the beginning balances of cumulative results of operations and unexpended appropriations. This correction
   reduced the beginning balance of cumulative results of operations and increased the beginning balance of
   unexpended appropriations by $1,247,505. The overall impact of this correction on net position is zero dollars.
   Since this correction is recorded in FY 2008, so no prior years financial statements were restated.
   The cause of errors is due to incorrect entries in past years on recording of donated fund expenses. In addition to
   the appropriate funds, USADF also has donated funds from other countries. Donated fund expenses should only
   be closed to cumulative result of operations instead of unexpended appropriations. In prior years some
   transactions for donated funds were closed to unexpended appropriation account.
    Management has taken the following step to correct these misclassifications in the future:
   •	    Management will perform monthly review of Unexpended Appropriation account (3100) to ensure the
        integrity of trial balance and enter any corrective adjusting entries.




                                                            29

                              The accompanying notes are an integral part of these statements.
Note 11. Reconciliation of Net Cost of Operations to Budget


                       United States African Development Foundation 

               RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET 

                     For the Years Ended September 30, 2009 and 2008 

                                                                                       FY 2009         FY2008

RESOURCES USED TO FINANCE ACTIVITIES

Budgetary Resources Obligated
   Obligations Incurred                                                              $39,803,026     $31,224,438
   Less: Spending Authority from offsetting collections & recoveries                  (6,208,971)     (2,233,710)
Net Obligations                                                                       33,594,055      28,990,728

Other Resources
   Imputed financing from costs absorbed by others                                        252,754       231,606
   Other                                                                                  649,363       (17,380)
   Net Other Resources Used to Finance Activities                                         902,117       214,226

Total Resources Used to Finance Activities                                            34,496,172      29,204,954

RESOURCES USED TO FINANCE ITEMS NOT PART
  OF THE NET COST OF OPERATIONS

   Change in budgetary resources obligated for goods, services,
      And benefits ordered but not yet provided (Increase)                             (4,782,822)    (3,357,554)
      Other resources or adjustments to net obligated resources
      That do not affect net cost of operations                                                           17,380
   Resources that finance the acquisition of assets                                      (202,875)      (281,706)
   Total resources that do not fund net costs                                          (4,985,697)    (3,621,880)

Total Resources Used to Finance Net Cost of Operations                                29,510,475      25,583,074

COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT
  REQUIRE OR GENERATE RESOURCES IN THE CURRENT PERIOD
  Components Requiring or Generating Resources in Future Periods:
    Increase (decrease) in Accrued Annual Leave Liability                                  70,545         (8,229)
    Total components of Net Cost of Operations that will require or
      Generate resources in future periods                                                 70,545         (8,229)

COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
  Loss/(gains) on the disposal of assets                                                        -             -
  Depreciation and amortization                                                           239,616       215,161
  Others                                                                                      925          (656)
  Total components of Net Cost of Operations that will not require or
     Generate resources                                                                   240,541       214,505

   Total components of Net Cost of Operations that will not require or
      Generate resources in the current period                                            311,086       206,276

NET COST OF OPERATIONS                                                               $29,821,561     $25,789,350


                                                           30

                             The accompanying notes are an integral part of these statements.
